<html>
<title> - HEARING ON THE NOMINATIONS OF DOUGLAS BENEVENTO, NOMINEE TO BE DEPUTY ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY; THE HONORABLE DAVID A. WRIGHT, NOMINEE TO BE A MEMBER, U.S. NUCLEAR REGULATORY COMMISSION; AND CHRISTOPHER T. HANSON, NOMINEE TO BE A MEMBER, U.S. NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 116-206]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-206

 HEARING ON THE NOMINATIONS OF DOUGLAS BENEVENTO, NOMINEE TO BE DEPUTY 
  ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY; THE HONORABLE 
   DAVID A. WRIGHT, NOMINEE TO BE A MEMBER, U.S. NUCLEAR REGULATORY 
  COMMISSION; AND CHRISTOPHER T. HANSON, NOMINEE TO BE A MEMBER, U.S. 
                     NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                             MARCH 11, 2020
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-362PDF                 WASHINGTON : 2020           
        
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 11, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     7
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     8

                               WITNESSES

Feinstein, Hon. Dianne, U.S. Senator from the State of California     1
Daines, Hon. Steve, U.S. Senator from the State of Montana.......     2
Duncan, Hon. Jeff, U.S. Representative from the State of South 
  Carolina.......................................................     4
Gardner, Hon. Cory, U.S. Senator from the State of Colorado......     5
Benevento, Douglas, nominee to be Deputy Administrator, U.S. 
  Environmental Protection Agency................................    36
    Prepared statement...........................................    38
    Responses to additional questions from:
        Senator Carper...........................................    87
        Senator Cardin...........................................    99
        Senator Cramer...........................................   105
    Response to an additional question from Senator Ernst........   107
Wright, Hon. David A., nominee to be a Member, U.S. Nuclear 
  Regulatory Commission..........................................   108
    Prepared statement...........................................   110
    Responses to additional questions from:
        Senator Cardin...........................................   112
        Senator Cramer...........................................   117
Hanson, Christopher T., nominee to be a Member, U.S. Nuclear 
  Regulatory Commission..........................................   123
    Prepared statement...........................................   125
    Responses to additional questions from Senator Barrasso......   127
    Response to an additional question from Senator Cardin.......   146

                          ADDITIONAL MATERIAL

Material in support of Mr. Wright:
    Letter to Senators Barrasso and Carper from U.S. 
      Representative Jeff Duncan, March 4, 2020..................   180
    Letter to Senators Barrasso and Carper from U.S. Senator 
      Lindsey O. Graham et al., March 6, 2020....................   181
    Letter to Senators Barrasso and Carper from the National 
      Association of Regulatory Utility Commissioners, March 5, 
      2020.......................................................   183
    Post Fukushima Order Implementation Status, February 12, 2020   184
    Post Fukushima Flooding and Seismic Hazard Reevaluation 
      Status, February 12, 2020..................................   186

 
 HEARING ON THE NOMINATIONS OF DOUGLAS BENEVENTO, NOMINEE TO BE DEPUTY 
  ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY; THE HONORABLE 
   DAVID A. WRIGHT, NOMINEE TO BE A MEMBER, U.S. NUCLEAR REGULATORY 
  COMMISSION; AND CHRISTOPHER T. HANSON, NOMINEE TO BE A MEMBER, U.S. 
                     NUCLEAR REGULATORY COMMISSION

                              ----------                              


                       WEDNESDAY, MARCH 11, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Braun, 
Rounds, Sullivan, Boozman, Ernst, Cardin, Whitehouse, Booker, 
Duckworth, and Van Hollen.
    Senator Barrasso. Good morning. Today we will consider the 
nominations of Douglas Benevento to serve as the Deputy 
Administrator of the Environmental Protection Agency and then 
David Wright and Christopher Hanson to be Commissioners of the 
Nuclear Regulatory Commission.
    At this point, I would normally go through my full morning 
statement, as would Senator Carper. But with Senators Feinstein 
and Daines and Representative Duncan here, I know you have 
pressing schedules. So we will defer our opening statements 
until you would go ahead.
    If that is all right with you, Senator Feinstein, we would 
be happy to call on you to begin at this time.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thank you, Mr. Chairman. That is a first 
among a world of diminishing firsts. So I just want you to 
know, it is very, very gentlemanly like for you to do this.
    Mr. Chairman, Mr. Inhofe, Ranking Member Carper, it is a 
great pleasure for me to introduce Chris Hanson this morning. 
Chris has diligently served the Senate and the people of 
California for over 6 years now. He has been a key member of my 
Energy and Water Appropriations staff.
    During that time, he has advised me and the Senate 
Appropriations Committee on issues surrounding the Nuclear 
Regulatory Commission, including its budget, its oversight of 
nuclear reactor decommissioning at San Onofre in California, 
and issues related to proposed new reactor technology.
    He has also overseen nuclear energy research and 
development, radioactive waste cleanup, nuclear weapons, non-
proliferation, and naval reactor programs.
    Prior to coming to the Senate, Chris worked at the 
Department of Energy, where he advised the Assistant Secretary 
of Nuclear Energy, and worked on appropriation issues for then-
Secretary Steven Chu. In all, he has 25 years of experience 
working on the very issues at the heart of the Nuclear 
Regulatory Commission's mandate.
    As members of this Committee know, the members and staff of 
the Energy and Water Appropriations Subcommittee seamlessly 
work together in order to produce a bipartisan bill each year. 
I am just delighted to work with Lamar Alexander.
    Chris's expertise, his professionalism, and his quiet good 
nature are instrumental in our effort. He is respected and 
appreciated by members on both sides of the aisle.
    It is not surprising, therefore, that Senator Alexander, 
our subcommittee chair, has sent a letter supporting Chris's 
nomination, which I very much appreciate. Senator Alexander and 
I have spoken about how much the subcommittee will miss Chris. 
But we are happy for him, and look forward to working with him 
in his new role, should he be confirmed.
    In closing, I have every confidence that Chris will give 
his usual forethought and insight to the issues that come 
before the commission, and I know he and other commissioners 
will find him to be an absolute joy to work with.
    I am going to miss him very much. But I look forward to his 
success in this new role, and continuing to serve the country, 
with all the expertise and professionalism he has shown us 
these past 6 years.
    I was just delighted to meet his wife and three remarkable 
children, and just delighted that they can observe him this 
morning.
    Thank you, Mr. Chairman and Ranking Member Carper, and 
members of the Committee.
    Senator Barrasso. Thank you so very much, Senator 
Feinstein, we appreciate your time being with us this morning. 
Thank you.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Daines. Chairman Barrasso, Ranking Member Carper, 
thank you. It is truly my honor to introduce a long time 
colleague, a friend, and a fellow westerner, Mr. Doug 
Benevento.
    Mr. Benevento formerly served as the Regional Administrator 
for Region 8, where his responsibilities included overseeing 
six States--along with Montana--and 27 tribal nations. It was 
during that time I got to work closely with Doug and form a 
personal relationship.
    In fact, Mr. Benevento joined me in Butte and Anaconda. 
Now, for some perspective on Montana politics, Butte and 
Anaconda are two strong traditional, Democrat, hard working 
kind of folks politically. I think they are a little skeptical 
of somebody coming from the Trump administration to work with 
these communities at first. But he came.
    In fact, he was instrumental in bringing Administrator 
Wheeler to see Montana's Superfund sites first-hand. These are 
a couple of major Superfund sites that have been steady for 
years without getting resolution. This is the first time in 
decades that an EPA Administrator had come to Montana, and is 
indicative of the agency and the Administration's willingness 
to engage directly with these impacted communities.
    I can say with certainty that never have I worked with a 
regional administrator more determined to be responsive to the 
needs of the community and finally clean up Superfund sites.
    In fact, when Doug first assumed his role as Region 8 
Administrator, the cleanup efforts at these Superfund sites in 
Anaconda and Butte were in utter disarray. Significant 
distrust, and rightfully so, between the EPA and Montana 
communities due to a history of broken promises, endless 
bureaucratic delays, precluded substantial progress on cleanup.
    Mr. Benevento set about changing that immediately. On day 
one, he made an effort to earn Montana's trust, not always easy 
to do, listening not only to local leaders and stakeholders, 
but more importantly, the everyday folks who had been living 
under the Superfund burden since 1983.
    Mr. Benevento's even temperament, his pragmatism, his 
willingness to engage in very difficult conversations, built 
much needed bridges between the agency and Montanans in Butte 
and Anaconda. He restarted negotiations by establishing a hard 
stance early on. He basically said, Listen, if there is not an 
agreement formed here, be prepared for the EPA to issue a 
unilateral order for cleanup.
    This bold move brought stakeholders and local leaders back 
to the table. Once discussions were restarted, Mr. Benevento 
set a new standard for transparency and accessibility, 
implementing a new open door policy. He even provided his own 
cell phone number to the folks that could contact him directly. 
What a refreshing change coming from the EPA.
    It was gestures like these that served as the building 
blocks for both Butte and Anaconda to come to resolution on 
Superfund remedial actions. I am pleased to report--let's talk 
about the result now--that since then, the EPA has released a 
proposed consent decree detailing final cleanup actions in 
Butte, and the final consent decree for Anaconda is scheduled 
to be released very shortly. That is a big deal.
    There are certainly still hurdles ahead for both sites to 
be restored. But these accomplishments, and more importantly, 
the trust built, would not have been possible without Mr. 
Benevento's leadership.
    These accomplishments in Montana are a direct result of the 
administration's dedication to clean up Superfund sites that 
have languished for decades. They have depressed our real 
estate price in these communities, homes are starting to come 
back up. Mr. Benevento's leadership, his administrative skills, 
his character, have made all the difference.
    Mr. Benevento has my full support as Deputy Administrator 
for the Environmental Protection agency. I can say it is a bit 
of a regret that we have lost him from out west. But it is very 
good to see that he is now assuming more responsibility and 
leadership. We truly could have no better ally serving in this 
role.
    I look forward to seeing him confirmed expeditiously so he 
can continue his good work.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Daines. I 
know you have a very tight schedule, but I appreciate your 
being here this morning.
    I am next going to turn to our friend, Jeff Duncan, who is 
in his fifth term in the Third District of South Carolina, 
someone much better known on the other side of the street than 
here.
    But I will tell you, he has a great blog called Walk-On 
Legislator. He was a wide receiver for the Clemson football 
team, and they continue to excel, the good tradition that you 
brought to Clemson when you walked on.
    We are grateful to have you here today. Thank you.

      STATEMENT OF HON. JEFF DUNCAN, U.S. REPRESENTATIVE 
                FROM THE STATE OF SOUTH CAROLINA

    Representative Duncan. Thank you, Chairman Barrasso and 
Ranking Member Carper, other members of the Committee.
    I am honored to be here today to introduce and support my 
good friend, Hon. David A. Wright, to continue his service as a 
commissioner of the Nuclear Regulatory Commission.
    I have known David personally for almost 20 years, and I 
believe Commissioner Wright's background as a public servant 
and his knowledge of the agency's subject matter more than 
qualifies him to continue his service on the commission.
    David has ably served as a commissioner since he took 
office May 30th, 2018. I have no doubt that he will continue 
this success through a second term.
    He grew up in South Carolina, and maintains a residence in 
Irmo, South Carolina. Most importantly, he is a graduate of 
Clemson University--go, Tigers.
    Prior to his service on the NRC, Commissioner Wright had a 
distinguished career in public service as a city councilman, a 
mayor, and a member of the South Carolina House of 
Representatives.
    After serving in the South Carolina State House, 
Commissioner Wright served on the South Carolina Public Service 
Commission in a variety of capacities, including as vice 
chairman and chairman. He was on the commission for almost a 
decade, from 2004 to 2013, where he earned high respect from 
his peers for being a balanced and fair regulator.
    From 2011 through 2018, he served as president of the 
National Association of Regulatory Utility Commissioners, where 
he represented State economic regulators nationally. Following 
his public service, Commissioner Wright started his own small 
business where he focused on energy and water issues.
    Throughout his career, he has approached difficult issues 
in a thoughtful and bipartisan manner, which is essential to 
performing the duties required by the commissioner.
    South Carolina has a unique a complex history with nuclear 
power. We are a State with significant interest in the 
leadership of the NRC.
    South Carolina is home to seven nuclear reactors, a nuclear 
fuel fabrication facility, a low level waste facility, and the 
Savannah River site. We are a leader in nuclear power, both on 
the civilian and defense side of operations.
    Through Commissioner Wright's service at the State level, 
he has a deep understanding of the scope of issues that fall 
under the purview of the NRC. Commissioner Wright is committed 
to ensuring the health and public safety of not only South 
Carolinians, but of all Americans. His expertise in South 
Carolina, as well as his current work on the NRC throughout 
these past 2 years, demonstrate Commissioner Wright's masterful 
understanding of all things nuclear.
    Thank you again, Chairman Barrasso and Ranking Member 
Carper, for the opportunity to introduce David. I have spent a 
lot of time with David over the years, at Clemson football 
games, in conversations during my State tenure in the 
legislature. I, along with the rest of the South Carolina 
delegation, fully support his confirmation to the NRC, and look 
forward to his many successes for the years to come.
    With that, I thank you again, and I yield back.
    Senator Barrasso. Thank you so much for joining us, and for 
that very strong recommendation. Thank you.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
            U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Gardner. Thank you, Mr. Chairman and Ranking 
Member.
    Thank you very much for the opportunity to appear before 
you today to introduce a very good friend of mine, Doug 
Benevento, and of course, his wife, Gwen Benevento, and their 
two lovely children who are here with us today. Thank you very 
much for this opportunity.
    It is my pleasure to introduce Doug Benevento, who has been 
nominated to serve as Deputy Administrator of the Environmental 
Protection Agency. I want to start out by congratulating Doug 
on this nomination.
    It was welcome news any time, and it is always welcome news 
any time a Coloradan can serve in a leadership position in any 
Administration. I have always been of the mindset that we need 
more Colorado common sense in Washington. And this is one more 
step in that direction.
    I have known Doug and his family for nearly 20 years, going 
back to our days as Senate staffers in Senator Wayne Allard's 
office of Colorado. I actually came into the office, taking the 
position that he had in Senator Allard's office.
    I attended law school with his wife, Gwen, who did much 
better than I did in law school.
    Doug handled environmental and natural resource issues for 
Senator Allard, and that was the beginning of a very long 
career advocating for protecting the environment.
    As a staffer, he helped Senator Allard secure expedited 
funding for the cleanup of the Rocky Flats Nuclear Weapons 
Plant. For those of you who were serving then, or those of you 
who were staffers with Doug Benevento at the time, you know 
what an incredible issue this was, and continues to be, for the 
State, a site northwest of Denver that began producing 
plutonium triggers for nuclear weapons in 1952.
    When the site closed down in 1992, what followed was one of 
the most complex environmental cleanups the world has ever 
seen. A part of this reclaimed site is now a 5,000 acre 
wildlife refuge, with over 10 miles of hiking trails, thanks to 
Doug's work.
    Following Doug's staffing experience on Capitol Hill, he 
went on to be the Executive Director of the Colorado Department 
of Public Health and Environment. I believe that is the largest 
State agency in Colorado, the principal State agency that the 
EPA interfaces with the State in Colorado.
    During this time, in this role, the State successfully 
achieved compliance with Federal health based air quality 
standards. This experience also no doubt taught Doug the 
importance of having a healthy dialogue between States and the 
Federal Government as they work together on regulatory issues.
    As the Region 8 EPA Administrator in 2017, Doug worked with 
agency leadership to secure accelerated funding for the 
Colorado Smelter Superfund site, a residential neighborhood 
with houses and yards contaminated by elevated levels of lead 
and arsenic near and in Pueblo, Colorado. The agency committed 
$15 million a year through 2022 to ensure the cleanup of 770 
yards and the interiors of 536 houses when the work is all 
done.
    This was a huge deal for the city of Pueblo and the people 
of Pueblo in southern Colorado, an area that has long struggled 
with legacy pollution issues.
    Doug also served in the private sector--incredible private 
sector experience--on the relevant issues under EPA's 
jurisdiction, which is often an enormous benefit for any 
individual in public service. When Doug was in the private 
sector, he worked on the transformation of our State's largest 
investor owned electric utility to produce cleaner energy and 
to reduce emissions.
    Doug's service as a policy staffer on Capitol Hill, his 
service in State government, his time in the private sector, 
and his recent service at the highest levels of the EPA make 
him uniquely qualified for the post of Deputy Administrator of 
the Environmental Protection Agency.
    I am incredibly honored to be here with his family; 
certainly before this Committee is an honor.
    I thank my colleagues for their thoughtful consideration 
and hopeful favorable consideration of his nomination.
    Thank you.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Senator Gardner. I 
know you have a packed schedule, and we appreciate your being 
with us this morning.
    At this point, I would like to welcome our three nominees 
to the Committee, and ask that you take your seats at the 
table. They will put name tags up there.
    As you head up, I would just say that President Trump first 
nominated Doug Benevento to serve as Deputy Administrator of 
the Environmental Protection Agency on February 25th. The 
Deputy Administrator plays a central role in developing and 
implementing programs and activities focused on fulfilling the 
EPA's mission of protecting human health and the environment.
    Mr. Benevento has spent his 30-year career working to 
protect public health and the environment. In a variety of 
positions, he has gained a wealth of experience developing, 
implementing, and complying with environmental laws and 
policies.
    He currently serves as the Associate Deputy Administrator 
in the Environmental Protection Agency. In this role, he 
oversees the agency's 10 regions, and is responsible for 
improving coordination between these regions and the agency's 
national programs.
    Mr. Benevento is well suited for this position, since he 
has previously served as the Environmental Protection Agency's 
Region 8 administrator. In that position, he helped foster 
positive and productive relationships with the States.
    Prior to joining EPA, he served as an attorney in the 
private sector, as Executive Director of the Colorado 
Department of Public Health and the Environment, and on the 
legislative staff of Congressman--then-Senator--Wayne Allard of 
Colorado.
    With credentials like these, it is no surprise that 
stakeholders from across the political spectrum have 
enthusiastically endorsed Mr. Benevento's nomination. Jim 
Martin, the former EPA Region 8 administrator during the Obama 
administration, wrote this: ``I have known and worked with Doug 
for a number of years and in many capacities. Doug brings to 
every issue he encounters an open mind and a keen intellect. He 
is perfectly suited for this position.''
    Numerous others have also written in support, including the 
Mississippi Governor, Tate Reeves; former Colorado Governor 
Bill Owens; and Montana Attorney General Tim Fox.
    I urge all my colleagues to support the nomination.
    President Trump has also nominated David Wright to serve as 
a commissioner on the Nuclear Regulatory Commission for a 5-
year term, expiring June 30th, 2025.
    He is currently serving as a commissioner for the remainder 
of a 5-year term which will expire on June 30th of this year. 
In May 2018, the full Senate confirmed his nomination for the 
current term by voice vote.
    Commissioner Wright is well qualified to continue serving 
as a commissioner. Prior to joining the Nuclear Regulatory 
Commission, Commissioner Wright served as chairman of the South 
Carolina Public Service Commission, president of the 
Southeastern Association of Regulatory Utility Commissioners, 
president of the National Association of Regulatory Utility 
Commissioners, a member of the South Carolina House of 
Representatives, and councilman and mayor of the town of Irmo, 
South Carolina. He has also owned and operated several small 
businesses.
    Greg White, the Executive Director of the National 
Association of Regulatory Utility Commissioners, wrote this in 
support of Commissioner Wright's nomination: ``David has 
already demonstrated his commitment to the NRC's mission to 
ensure protection of public health and safety. His continued 
service on the commission will unquestionably further the 
agency's important public safety mission.''
    Today will be the commissioner's fourth time appearing 
before the Environment and Public Works Committee. Just last 
week, he testified on the Nuclear Regulatory Commission's 
budget. He has done a fine job as a commissioner and deserves 
to be confirmed to another term.
    President Trump has also nominated Christopher Hanson to 
serve as a commissioner on the Nuclear Regulatory Commission. 
If confirmed, Mr. Hanson will serve a 5-year term expiring June 
30th of 2024. Mr. Hanson has been nominated to fill a vacancy 
left when Commissioner Stephen Burns resigned in April of last 
year.
    For the past 5 years, Mr. Hanson served as a minority 
professional staff member on the Senate Appropriations 
Committee's Energy and Water Subcommittee. In that capacity, he 
has worked for Ranking Member Feinstein.
    Previously, he served in three roles as a civil servant at 
the Department of Energy, including as senior policy advisor in 
the Office of Nuclear Energy.
    Confirming Commissioner Wright and Mr. Hanson will ensure 
that the Nuclear Regulatory Commission is fully staffed with 
all five commissioners.
    At this time, I would like to invite Senator Carper to make 
any opening statement that he would like.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks so much, Mr. Chairman.
    We welcome each of our nominees here today.
    Mr. Wright, thank you for coming by and visiting with us 
earlier this week.
    Mr. Benevento, thank you very much for coming in and 
spending some time with us, too, and Mr. Hanson, to you as 
well.
    I think some of you, at least Mr. Wright indicated he 
probably wouldn't have family members here today. But maybe 
alone, each of you will loan a couple of your relatives to him 
for the hearing.
    I think that might be your wife sitting behind you, Chris. 
My three sons, your three sons, that is pretty good.
    Mr. Benevento, I think that might be your wife and a couple 
of daughters back there. I just want to thank your daughters 
for cutting school today and wanting to spend some time with us 
and to have your back.
    And the same for your sons, Chris.
    I think the folks who have already spoken here to who know 
you far better than we ever will have given us really good 
insight. We appreciate what they have had to say about each of 
you.
    Mr. Benevento has been working in various capacities at 
EPA, as we have heard, since almost the beginning of the Trump 
administration. Serving, before that, I think, as the head of 
EPA Region 8. He also spent, I understand, 6 years serving in 
leadership roles in Colorado's Department of Public Health and 
the Environment.
    Who was the Governor then? Was it Bill Owens? Yes.
    Before that, Mr. Benevento worked on environmental issues 
for Senator Wayne Allard, one of our former colleagues. I think 
I actually--my office is his old office. So when you met with 
us, you were really in his old office.
    It is clear from a review of Mr. Benevento's qualifications 
that he is qualified for the job.
    Senator Jon Tester also asked me to mention that he is 
sorry that he couldn't be here to express support for Mr. 
Benevento this morning. He does plan to place a hold on your 
nomination.
    [Laughter.]
    Senator Carper. Not really.
    Senator Tester is leading a VA--Veterans Affairs--hearing 
this morning. But he wanted me to share that he appreciated the 
leadership and engagement with local communities and solution 
oriented mindsets that Mr. Benevento brought to the table as 
head of Region 8. Jon doesn't always have compliments like that 
to lather on people. So enjoy the moment.
    The concern that I and I imagine some of my colleagues 
share is that Mr. Benevento has spent the last couple of years 
working in an agency that is making some of the most 
controversial and potentially least environmentally protective 
decisions in the agency's history.
    From its purposeless rollback of the Clean Car Standards to 
its ongoing efforts to undermine the legal underpinnings of the 
Mercury and Air Toxics Standards, standards that are widely 
supported not just by the power industry, but the environmental 
community far and wide, to the EPA's failure to quickly address 
PFAS contamination. EPA is making people question the 
environmental protection phrase in its name.
    We need some folks working over there--actually there are 
plenty of people who work there who are strong 
environmentalists. But we need some people at the top who are 
also determined to make sure that environmental protection 
means what it says every day.
    The agency's relentless assault on rules to protect health 
and the environment is matched only by the assault on the 
agency itself. We continue to hear about EPA career experts 
being sidelined and being relocated and deprived of basic 
worker protection and assurances.
    While EPA is no longer plagued by the same steady stream of 
embarrassing ethical lapses that existed during the Pruitt era, 
I cannot say that any of the environmental outcomes have 
improved all that much.
    Sadly, I also cannot say that--and I say that is in spite 
of the good work of hundreds of thousands of EPA employees. But 
sadly, I cannot say that the agency's relationship with some of 
our offices has improved that much, either.
    We are the oversight agency; we are the oversight committee 
for EPA and a number of other Federal agencies. We do 
oversight. We do oversight through hearings like this, we do 
oversight through letters that we send, through questions that 
we ask.
    Sadly, our oversight letters remain largely unanswered. 
That is just unacceptable. Republicans wouldn't like that if 
the shoe were on the other foot. And we don't like it that it 
is on our foot.
    But Mr. Wheeler has apparently just hired a new chief of 
staff. His tweets proclaim that she believes the so-called--
this is her quote--``loony left,'' want to ``implement a Soviet 
style takeover of our energy and our economy.'' It goes on to 
say, ``Democrat actions are corroding the democracy.'' That is 
the chief of staff of our EPA Administrator.
    I just want to say, Mr. Chairman, with the death of our 
late colleagues, John McCain, I am the last Vietnam veteran 
serving in the U.S. Senate. I served 5 years, three tours over 
there, during a hot war in southeast Asia. The names of 56,000 
people with whom I served with that are dead that are on a wall 
down by the Lincoln Memorial.
    Comments like the one from this chief of staff conflating 
climate action with communism aren't just intellectually 
baseless, they are dishonest. They are reprehensible, 
especially when you consider the military service record of our 
commander in chief during that same period of time.
    Meanwhile, EPA is still refusing to release its own 
economic analysis on another front, its own economic analysis 
of my bipartisan bill with Senator John Kennedy to phase down--
not phase out, not phase out HFCs, refrigerant and cooling that 
is a thousand times more dangerous than carbon dioxide for 
climate. Even though we have learned that analysis, we have 
learned from within EPA that the EPA's own economic analysis 
finds that our legislation would save consumers about $3.7 
billion over 15 years. And EPA won't release that information. 
That is not only unacceptable, that is just unimaginable.
    I look forward to hearing how Mr. Benevento plans to 
address these issues, should he be confirmed.
    With that having been said, I want to turn briefly to the 
two nominees before us for the Nuclear Regulatory Commission. 
As I have said before, I believe it is critical that the NRC 
have consistent leadership from both political parties, 
especially in the nuclear industry which faces an uncertain 
future.
    I am heartened that the Administration has nominated the 
well qualified Christopher Hanson to be commissioner. Senator 
Feinstein has spoken of him; we have met with him; very 
impressive individual.
    And the President has re-nominated David Wright as 
commissioner, too.
    I will close with this. We don't agree on everything in 
this Committee. One of the things we agree on is the need for 
producing a lot less carbon and finding ways to create 
electricity without producing additional carbon. Nuclear energy 
provides 50 percent of the carbon-free electricity that we 
generate in this country. We need more of that, not less of 
that.
    One of the ways we are going to get more of that is to make 
sure we have terrific commissioners, great staff at the NRC, 
doing their job every day to make sure that the plants, 90 
some, almost 100 plants that are still out there continue, to 
operate efficiently and safely.
    Thank you so much.
    Senator Barrasso. Thank you very much, Senator Carper.
    As I get ready to turn to the nominees, I will remind each 
of you that your full written testimony will be made a part of 
the record. We look forward to hearing the testimony.
    Before calling on anyone individually, I would like to 
point out the Committee has received letters and statements 
from more than 30 individuals in support of our first nominee--
Mr. Benevento's--nomination is endorsed by the Environmental 
Protection Agency Region 8 Administrator under President Obama, 
the Environment and Natural Resources Advisor to former 
Democrat Governor John Hickenlooper, numerous leaders of State 
and tribal environmental protection departments, and other 
State and local officials.
    Without objection, I ask unanimous consent to enter these 
letters into the record.
    So done.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Mr. Benevento, welcome to the Committee. 
If you would like to introduce your family first, and then 
proceed with your testimony.

     STATEMENT OF DOUGLAS BENEVENTO, NOMINEE TO BE DEPUTY 
      ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Benevento. Thank you, I do.
    First, thank you, Mr. Chairman; thank you, Mr. Ranking 
Member.
    I want to thank members of my family for being here. My 
mother, Nancy Paul, and my stepfather, Dave Paul, who flew out 
here from Colorado. It is wonderful to have them here.
    Senator Carper. Would you ask your mother to raise her 
hand? Thank you. Would you take an oath, I swear----
    [Laughter.]
    Mr. Benevento. It is wonderful to have them here to support 
me.
    Also here today is my wife, Gwen, and our two daughters, 
Anna and Kate. Anna just started high school, and Kate just 
started middle school. They are active in theater, are 
excellent students, and most importantly, are good and kind 
people.
    When taking a job in public service, it is truly a family 
decision. It is that way for us. With me being gone for long 
stretches of time, Gwen has taken on additional burdens. She 
not only drops the kids off at school and picks them up, but 
she is also engaged with them in all of their extracurricular 
activities.
    When she is not doing that, she is practicing law, having 
been named one of Denver's top lawyers last year. She is 
certainly the glue that holds us together.
    Senator Barrasso. We could have her on this Committee, one 
of the top lawyers in Denver. So you were smarter than Cory 
Gardner, actually, in law school.
    [Laughter.]
    Mr. Benevento. I also want to thank Senators Gardner and 
Daines for introducing me.
    Thank you, Mr. Chairman, and Mr. Ranking Member, and 
members of the Committee, for taking the time to consider my 
nomination. It is a great honor to have been nominated by 
President Trump to be deputy at the premier environmental 
organization in the world, the Environmental Protection Agency. 
It is also humbling to be sitting here in front of all of you 
today, when over 20 years ago, I used to sit in the chairs 
behind you as a staffer.
    If confirmed for this position, I will focus my efforts on 
five priorities. First, supporting the Administrator and 
carrying out the mission of the agency to protect human health 
and the environment.
    Second, continuing the agency's regulatory agenda of 
modernizing regulations to ensure they protect human health and 
the environment while also allowing for economic growth.
    Third, working with the regions and the States on 
implementation of environmental laws.
    Fourth, continuing to work with the Gulf Coast States and 
other Federal agencies on Gulf Coast restoration efforts.
    Finally, working with career staff on work force 
development. We have a trust responsibility to do our part to 
ensure that the agency has a work force prepared to tackle 
future challenges.
    I have spent my career in environmental protection in one 
form or another. Early on, I worked for Congressman and then-
Senator Allard who taught me that listening to communities is 
perhaps the most important part of public service.
    At the Colorado Department of Public Health and 
Environment, I learned the important role that States play in 
environmental protection. The States are at the forefront of 
protecting human health and the environment, and it is our job 
at EPA to partner with them to ensure that they are faithfully 
implementing Federal laws. Together, EPA and the States form a 
partnership that protects the American public.
    Following those experiences, I practiced environmental law 
at Greenburg Traurig, and then worked at Xcel Energy, a large 
western and midwestern vertically integrated gas and electric 
utility, known for its all of the above energy strategy. The 
knowledge I gained from working at both places taught me the 
practical impact of EPA's decisions.
    Most recently, I was Regional Administrator at EPA in the 
West. I value the experience of working with fellow westerners 
to solve difficult issues. We did that by cooperating and 
listening to each other, which is what we do out west. I look 
forward to bringing this perspective to this position if 
confirmed.
    It is the cumulative lessons learned from these experiences 
that I bring to this position, and that, if confirmed, I 
believe can help promote EPA's mission of protecting human 
health and the environment.
    Thank you, Mr. Chairman, and Mr. Ranking Member, Committee 
members. I look forward to answering your questions.
    [The prepared statement of Mr. Benevento follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for your testimony. 
Welcome to the Committee.
    Mr. Wright, welcome back. You were here just last week. We 
appreciate your being here today. Proceed.

STATEMENT OF HON. DAVID A. WRIGHT, NOMINEE TO BE A MEMBER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Wright. Thank you very much.
    Thank you, Chairman Barrasso, Ranking Member Carper, and 
esteemed members of the Committee.
    I appreciate the kind introduction of Congressman Jeff 
Duncan. Jeff is doing great things for his district back home 
in the great State of South Carolina and for our country. I am 
very proud to count him as one of my close friends as well.
    I am also very grateful to have the support of all seven 
members of our State's delegation: Senators Lindsey Graham and 
Tim Scott, Congressmen Jim Clyburn, Joe Wilson, obviously Jeff 
Duncan, Tom Rice, Ralph Norman, Joe Cunningham, and William 
Timmons.
    I would also like to say thank you to my family, who could 
not be here today. My mother, brothers and sisters, and three 
of my children live in South Carolina. My oldest son and his 
wife live in Arkansas. I want to thank them for supporting me 
over the last 2 years, because as we all know, as I serve, you 
are serving as well. So I want them to all know that I love 
them.
    For the record, Mom really wanted to be here today. She was 
seated right behind me as I went through this process almost 3 
years ago. Out of an abundance of caution, she decided that 
this is not the best time for her to be traveling.
    Personally, I am grateful to President Trump for nominating 
me to a 5-year term on the commission. If confirmed, I look 
forward to continuing my work on the commission.
    I also look forward to continuing to engage with this 
Committee. I am grateful for your commitment to your work and 
believe that your oversight of the NRC adds immeasurable value.
    As you know, the NRC has an important public health and 
safety mission. Every day that I have been at the NRC has given 
me a greater appreciation of that mission and the dedicated 
staff that ensure we meet that mission. It is an honor to serve 
our country as an NRC commissioner, and I hope to continue to 
have that opportunity after June 30th.
    It is a pleasure to serve with my colleagues on the 
commission, Chairman Svinicki, Commissioner Baran, and 
Commissioner Caputo. As I said at last week's oversight 
hearing, I have learned so much from each of them, and I 
appreciate their collegiality and insights on the matters 
before the commission.
    If confirmed, I pledge to work collegially with my 
colleagues, including Mr. Hanson, if he is confirmed with me.
    As you know, the commission has been involved in a number 
of important issues related to nuclear safety and security over 
the last 2 years. When considering these issues, safety is 
always my first thought and priority. I also strive to adhere 
to the NRC's principles of good regulation, especially the 
principles of independence, efficiency, and reliability.
    To better understand the issues before me, I have visited 
the many types of facilities subject to NRC regulation and 
talked with the licensees and NRC staff at those facilities to 
understand the boots on the ground perspectives, the challenges 
and the issues.
    Closer to home, I have made a practice of going cubicle by 
cubicle on every floor of the NRC, and I have visited NRC staff 
in each of the regional offices to learn about the people of 
the NRC and what is important to them. These interactions are 
extremely valuable to me, as the people of the NRC are its 
greatest asset.
    Consistent with my open door policy, I have met with people 
of all backgrounds and opinion. I have found that doing so 
enriches my perspective as a regulator as well.
    As this Committee knows, these are times of change at the 
NRC and in the industry we regulate. While we are preparing for 
a future that is not completely clear, we are taking concrete 
steps now to ensure that we are flexible enough to meet 
whatever challenge is ahead.
    We are preparing for novel technologies while continuing to 
license existing technologies effectively and reliably. We are 
working to become a more modern, risk informed regulator, 
consistent with the direction the Nuclear Energy Innovation and 
Modernization Act and our own principles of good regulation.
    As the NRC prepares for the future, one thing remains 
constant: our laser focus on important safety missions that we 
are responsible for, which is to provide reasonable assurance 
of adequate protection of public health and safety.
    Chairman Barrasso, Ranking Member Carper, and members of 
the Committee, I appreciate the opportunity to appear today, 
and look forward to your questions.
    [The prepared statement of Mr. Wright follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. Wright.
    Mr. Hanson, congratulations, and again, would you like to 
start by introducing your family and then proceeding with your 
testimony?

  STATEMENT OF CHRISTOPHER T. HANSON, NOMINEE TO BE A MEMBER, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Hanson. Thank you, Mr. Chairman.
    Behind me is my wife, Anne; and next to her our youngest 
son, Theo; and our oldest, Sam; and finally, our son, Andrew. I 
am so pleased that they could be here.
    Senator Barrasso. Welcome to all of you.
    Please proceed.
    Mr. Hanson. Thank you.
    Chairman Barrasso, Ranking Member Carper, and members of 
the Committee, thank you for the opportunity to appear before 
you today. I am honored to have been nominated by the President 
to serve on the Nuclear Regulatory Commission.
    And thank you, Senator Feinstein, for your kind words of 
introduction.
    Also a thank you to Senator Alexander for his letter of 
support. It has been a true honor and privilege to serve both 
of them on the Appropriations Committee for these last 6 years.
    I would also like to thank my wife, Anne, for her steadfast 
love and support. As I mentioned, our three boys are here, Sam, 
Andrew, and Theo. Your mom and I are very proud of you guys.
    Finally, a thank you to my parents, Tom and Linda, who are 
watching over the Internet in Michigan.
    I grew up in southwest Michigan just a few miles from the 
Palisades Nuclear Power Plant. As the test of the plant's 
emergency alert system blared from telephone poles each month, 
I understood early on the value of a reliable, independent 
regulator to ensure that the communities surrounding our 
Nation's nuclear plants are safe.
    My professional career has focused mainly on the nuclear 
sector in both the public and private spheres, from radioactive 
waste cleanup efforts to new nuclear construction to nuclear 
research and development, and finally to the Appropriations 
Committee in the U.S. Senate.
    Early in my career, I served as a consultant to the 
National Governors Association's Federal Facilities Task Force, 
a forum for State governments to collectively interact with the 
Department of Energy on the cleanup of the nuclear weapons 
complex. That experience instilled in me a deep sympathy for 
State and local governments' desire to have input and influence 
on Federal decisions affecting their jurisdictions.
    Later, I was a consultant to the Department of Energy on 
the economics and governance of uranium enrichment 
decontamination and efforts to close the fuel cycle through 
reprocessing and advanced reactor technologies. I also helped a 
major East Coast utility conduct a project risk assessment of 
new nuclear construction. Through these experiences, I gained 
an appreciation for how private sector entities make decisions 
about investments in nuclear power and technology, and how 
Government programs can influence those decisions.
    As a career civil servant in the Department of Energy, I 
managed the department's relationship with congressional 
appropriations committees, learning the value of congressional 
engagement and oversight in holding agencies accountable for 
policy and spending decisions.
    For the past 6 years, I have served as professional staff 
on the Energy and Water Appropriations Subcommittee overseeing 
the NRC's budget and operations, nuclear energy research and 
development programs, as well as nuclear national security 
efforts. One of the most rewarding aspects has been the 
collegiality and close bipartisan working relationships among 
staff on the Committee.
    If confirmed, I intend to bring these varied experiences to 
my tenure at the NRC, a passion for public participation and 
transparency, respect for private sector decisionmaking, 
appreciation of congressional oversight, and a commitment to 
collegiality.
    The NRC faces a complex set of challenges in the coming 
years, overseeing increased plant closures, regulating a 
current fleet, ever more important to clean energy goals, and 
preparing to license a diverse array of new reactor 
technologies. With a deep commitment to public service and a 
safe nuclear industry, I feel I would be coming full circle 
with a position at the NRC.
    In closing, I am humbled by the prospect of joining the 
other members of the Commission, including Commissioner David 
Wright, here today, each of whom brings a wealth of knowledge, 
experience, and insight to regulating the civilian use of 
nuclear materials and power.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Mr. Hanson follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. Hanson. Clearly, 
you understand the challenges that you are facing in the 
position for which we hope you become confirmed by the full 
Senate.
    I do want to thank all the nominees for the testimony today 
and throughout the hearing, and with questions for the record 
the Committee members will have the opportunity to learn more 
about your commitment to public service of our great Nation. I 
am going to ask that throughout this hearing, you please 
respond to the questions today and those submitted in writing 
for the record.
    I have to ask this following group of questions to each of 
you on behalf of the Committee. The first is, Do you agree, if 
confirmed, to appear before this Committee or designated 
members of this Committee and other appropriate committees of 
the Congress and provide information, subject to appropriate 
and necessary security protection, with respect to your 
responsibilities?
    Mr. Benevento. Yes.
    Mr. Wright. I do.
    Mr. Hanson. Yes.
    Senator Barrasso. And do you agree to ensure that 
testimony, briefings, documents, and electronic and other forms 
of information are provided to this Committee and its staff and 
other appropriate committees in a timely manner?
    Mr. Benevento. Yes.
    Mr. Wright. Yes.
    Mr. Hanson. Yes.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed?
    Mr. Benevento. No.
    Mr. Wright. No.
    Mr. Hanson. No.
    Senator Barrasso. We are now going to begin with a round of 
questions. We will do 5-minute rounds of questions.
    I would like to start with you, Mr. Benevento. October 2018 
you signed a memorandum of agreement with the Wyoming 
Department of Environmental Quality to promote the use of 
Wyoming's self-audit law. The self-audit law encourages 
facilities to come forward, work cooperatively with the State 
to address environmental issues.
    Can you explain how this model can serve as an example for 
other States?
    Mr. Benevento. Yes, thank you, Mr. Chairman.
    As you know, as you described, self-audit laws are designed 
to really encourage regulated entities to go out and find, fix, 
and report. It is what we call the virtuous cycle, where you 
are constantly looking for ways to improve your operations from 
an environmental perspective, so that you are constantly 
upgrading and doing what, frankly, the regulators can't do. We 
can't be everywhere at the same time.
    In return for that, what the regulators do, or what the 
State and Federal regulators should do, is they look at 
whatever violation may be reported, then they assess whether a 
penalty, or if there are any other penalties or injunctive 
relief that would be necessary.
    My experience having run the State department is when an 
entity comes in, they have found the problem, they have 
addressed it, and they have moved on that we generally would 
waive any penalties and make certain that the fixes they had 
put in place were appropriate.
    What is always looming out there, though, from a State 
official perspective, is what will EPA do. So they come--and 
these are State laws--they come, and they report to the State. 
EPA always has the ability to over-file or to come and take 
additional action.
    That tends to dampen a regulated entity's willingness to 
come forward if they don't know what EPA is going to do. 
Frankly, over the years, EPA has been hit or miss about whether 
they will accept a State's decision to waive penalties or not.
    What this MOU is designed to do is to ensure that certainty 
for the regulated entity. What it really says is, Look, if an 
entity comes forward, if the State takes the appropriate 
action, if they basically follow their own law, we will not 
step over the top of them and issue additional penalties. This 
is really important.
    The outcome in Wyoming has been great. The outcome in 
Wyoming, and I have spoken with Secretary Parfitt about this 
multiple times, from before there was the self-audit MOU to 
afterwards, they have seen an increase in the number of 
facilities that are actually going out and looking for issues 
in their operations and fixing them.
    The environmental benefit to the State of Wyoming has been 
great, so great that North Dakota has also signed an MOU. There 
are several other States that are also looking at it.
    It is a simple, common sense way for us to ensure that you 
have the help of the regulated industry in looking for problems 
in their facility, reporting them, and making sure that they 
are fixed, and doing it on a continuous basis.
    Senator Barrasso. Thank you.
    Mr. Hanson, the Nuclear Regulatory Commission staff, they 
recently identified some opportunities to enhance and modernize 
the primary program that oversees our nuclear power plants. You 
talked about growing up near one.
    The staff reviewed the last 20 years of operations by 
nuclear utilities and regulatory oversight of the plants. Based 
on this review, the staff made some recommendations to the 
commission for improving the programs.
    Should the commission periodically review and update its 
requirements, based on the most current and reliable 
information? Any thoughts on what we need to do along those 
lines?
    Mr. Hanson. Yes, thank you, Senator.
    I think it should periodically review and update its 
regulations. I know the current effort, the reactor oversight 
program enhancement project, was based in looking at past 
performance data.
    I think the key, and while I am not familiar with a lot of 
the specific elements of the ROP enhancement project, I think 
one of the key elements that we have to be cognizant of is, how 
do we manage information, how do we know what we know. If we 
can gather information about plant performance in a more 
efficient way, then I think those opportunities can and should 
be considered in ways that don't undermine the knowledge base 
that we have.
    Senator Barrasso. Mr. Benevento, just a quick short answer, 
if you could. Under your leadership as Executive Director of 
the Colorado Department of Public Health and the Environment, 
you played a critical role in the cleanup of plutonium and 
other contamination at the Department of Energy's Rocky Flats 
Plant Superfund.
    Can you explain your involvement and how the cleanup really 
helped the State of Colorado?
    Mr. Benevento. Yes, sir. My involvement was, I worked at 
the behest of Senator Allard to expedite appropriations. So 
basically what we were doing, we asked for some of the money 
that we knew would come in later years earlier, so we could 
expedite the cleanup and save the taxpayer money and do it 
quickly. Also working with regulators on ensuring that they 
were providing sound, common sense regulatory requirements for 
the cleanup.
    Senator Barrasso. Great. Thank you very much.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Earlier, the Chairman asked each of you this question. He 
said, do you agree to ensure that testimony, briefings, 
documents, and electronic and other forms of information are 
provided to this Committee and its staff and other appropriate 
committees in a timely manner. Each of you said yes. Each of 
you said yes. That is the right answer.
    I just want to say, Mr. Benevento, I mentioned that EPA has 
been more unresponsive to requests for information since 
Administrator Wheeler took over. For example, EPA has been 
refusing to release an economic analysis of legislation that 
Senator Kennedy and I offered to phase down, not phase out, but 
phase down HFCs, which are 1,000 times or more dangerous than 
carbon dioxide with respect to climate. But the EPA has been 
refusing to release an economic analysis that shows that our 
legislation will save consumers up to $3.7 billion over 15 
years.
    My question is, Mr. Benevento, I have been informed that 
EPA's Air Office has finished the analysis, which was also 
requested by Senator Kennedy. But other EPA political officials 
have refused to transmit it to his office. Will you commit to 
providing it to us by the end of this week?
    Mr. Benevento. Thank you for the question, Senator.
    What I will commit to you is I will go back to the agency; 
I did go back to the agency after we spoke and asked about the 
status of that analysis. It is still under review; it is not 
yet complete. I will commit to you that I will go back, and I 
will again see, check on the progress of it and report back to 
you on what that progress is.
    Senator Carper. Yes. I will just be really blunt. Your 
progress in finding this analysis--we are told it is done. We 
are told by people within the agency it is done. It is ready to 
go. But it is not being released.
    If we don't get it, I don't threaten--it is going to be 
hard for me. I want to support your nomination. I don't want to 
hold it; I don't want to impede it. But we want that 
information.
    And if it is really true, there are $3.7 billion of 
consumer savings that would flow from our legislation, we need 
to know that. We need to know that. And we are going to count 
on you to really be truthful to the vow you just took.
    Second question. I recently obtained a leaked version of 
the final draft rule that rolls back the vehicle greenhouse gas 
and fuel economy standards. In addition to the increased carbon 
pollution, the draft rule costs outweigh its benefits by more 
than $40 billion and includes many other legally questionable 
elements.
    There has been so much embarrassing media attention paid to 
EPA's criticism of the Transportation Department's work on this 
rule, that I have learned that EPA political officials have 
told career officials to stop documenting their feedback to the 
Transportation Department the way the law requires them to do.
    Specifically, we have learned that EPA recently provided a 
paper copy of its criticisms to the Transportation Department, 
but did not share an electronic copy of the same material with 
the White House Office of Management and Budget.
    Here is my question. Can you commit to us that you will 
ensure that this material, as well as any other material that 
EPA shares with the Transportation Department, as this rule is 
finalized, is placed into the White House rulemaking document 
as the Clean Air Act requires it to be?
    Mr. Benevento. Thanks, Senator.
    As you know, we have been working on this rule. It is not 
yet complete. NHTSA is on the lead on this. I will commit to 
you that I will go back to the agency, I will look into this 
matter. We are still in the process of working on this rule, 
though, and it is not yet complete.
    Senator Carper. Well, will you make sure the EPA follows 
the Clean Air Act in this regard or not?
    Mr. Benevento. Yes, we will follow the Clean Air Act.
    Senator Carper. Thank you.
    Mr. Hanson, the Chairman said to me as an aside he thought 
we were very fortunate that someone with your qualifications 
and background is willing and interested in serving in this 
capacity, along with Mr. Wright. I certainly agree with what he 
said to me.
    I have a question. You have a real interest, as do we, in 
accident-tolerant fuels for nuclear power plants. Accident-
tolerant fuels--in the next 5 years, the NRC faces the 
possibility of having to review license applications for widely 
different accident-tolerant fuel technologies and advanced 
reactors.
    What do you see as the benefit of accident-tolerant fuels? 
In your view, how is the NRC working with industry, health 
groups, and other stakeholders to overcome any critical skill 
gap at the NRC that would be necessary to review these 
technologies?
    Second, if confirmed, what more do you think you can do 
within the NRC on this issue as a commissioner?
    Mr. Hanson. Thank you, Senator, for that.
    The accident-tolerant fuel program at the Department of 
Energy is something I have been involved with for a number of 
years. It was a program Senator Feinstein started after the 
Fukushima accident, actually 9 years ago today, as a matter of 
fact. Not the program, the accident.
    As a way for the current fleet to have better performing 
fuel in accident conditions, and as the department has gone 
along and funded the research and development on that, they 
have not only realized certain safety benefits, but there have 
also been a number of performance benefits for reactor 
operations, as well, that have made that attractive 
economically for those.
    My understanding at this time is that the NRC has been very 
engaged, that there have been a number of computer models that 
have been developed on the Department of Energy side that are 
being used by NRC to evaluate some of these concepts. It is a 
program that I remain very interested in and enthusiastic 
about, both for its safety benefits and its potential economic 
benefits for the current fleet.
    At NRC, with regard to your second question, Senator, I 
think there are ongoing efforts in both personnel and 
regulation that can and should happen. I look forward to 
understanding the details around that, should I be confirmed. I 
think NRC has been--my understanding is they have been very, I 
don't want to say accommodating, but responsive to entities 
that have pursued this. I hope that can continue.
    Senator Carper. All right. Thanks very much.
    Senator Barrasso. Thank you, Senator Carper.
    Before turning to Senator Inhofe, the Environmental 
Protection Agency's decision to review the CAFE standards, the 
Corporate Average Fuel Economy standards, I believe, is 
warranted.
    In 2017, the Alliance of Automobile Manufacturers sent a 
letter to the agency. The letter said, if left unchanged, those 
standards could cause up to 1.1 million Americans to lose jobs 
due to lost vehicle sales. They said that low income households 
would be the hardest hit.
    So I ask unanimous consent to enter this statement into the 
record.
    Without objection, it will be done.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, it is unusual that we have three nominees and 
two very significant positions that I find myself in total 
agreement with all three of them, including, of course, the 
minority nominee. They are eminently qualified, and I look 
forward to very enthusiastically supporting all three of your 
nominations.
    I would offer a second opinion. I would just make the 
statement, the EPA has been very responsive to the requests to 
which reference has been made.
    Mr. Benevento, last month, we sat in my office and 
discussed some issues of importance to Oklahoma, including the 
future of the small refinery exemptions. I would like to follow 
up on that conversation.
    I am encouraged that the Administration recently sought a 
2-week extension of consideration of whether to appeal the 10th 
Circuit decision that invalidated certain SREs. I am hopeful 
that the administration would repeal this.
    I would just ask the question; any comments you might want 
to make, Mr. Benevento, that you are going to be confirmed, and 
when that happens, you are going would you ensure that small 
refineries will get some form of relief.
    We can think of a lot of different things that can come 
forth. But as a general rule, there are some things that can be 
upheld to the small refineries.
    What thoughts do you have about that, and what kind of 
commitment would you make to that extent?
    Mr. Benevento. Thank you, Senator. So the 10th Circuit 
decision came out just about the time my nomination did. I 
haven't been involved in a lot of the discussions, or any of 
the discussions that have been happening internal at the agency 
since then.
    But moving forward, what I can tell you is that I am happy 
to work with you and other members of the Committee and 
Congress, along with the Administrator, to ensure that whatever 
direction is ultimately determined, we move forward, and it is 
equitable to everybody.
    Senator Inhofe. Including small refineries?
    Mr. Benevento. Yes, sir.
    Senator Inhofe. Well, I appreciate that very much. I have 
no doubt that you will do that, because we have worked together 
in the past, and it is something that--a consideration that has 
to be made.
    Commissioner Wright, in 2015, when I chaired this 
Committee, I scrutinized the NRC's budget and fee recovery 
practices. What I found out was that NRC budget had not 
decreased in keeping with the drop in new reactor licensing and 
premature closing of existing plants. So I introduced NEIMA, 
with its budgeting and fee reform provisions to improve the 
accuracy and fairness of their financial practices at the NRC.
    I would like to ask you, is the NRC prepared to implement 
the NEIMA recommendations in fiscal year 2021 and begin 
budgeting more accurately and fairly?
    Just kind of comment about that. And then anything else in 
the remaining time that you would like to add in terms of some 
of your priorities, I would appreciate hearing them.
    Mr. Wright. Senator, thank you for the question. The NEIMA 
implementation, I believe, is going well. We have made 
necessary adjustments to our budgeting and to the way we work 
on our reporting processes. We have already submitted, I 
believe, nine reports to Congress so far. I think we have 
another one coming in July as well.
    I will tell you that we are challenged in certain areas 
because of some of the, the 5 percent reduction every year they 
have been going through even before I became a commissioner. 
And then to hit the cap.
    So we want to make sure that we are making the necessary 
changes to our budget, so that we can hit that 30 percent 
corporate support cap, which, I share the Chairman's 
disappointment that we missed it a little bit this year. I 
think we were at 31.
    Senator Inhofe. Yes.
    Mr. Wright. But I do think that the agency is doing 
everything, they are really making a game effort to do it.
    The GAO report just came out recently here, and they did 
recognize that we are making some strides. There are a couple 
of things that still need to happen, and I agree with the 
recommendations that the GAO report suggested, too.
    So there is more work to do. If we are challenged, I will 
commit to you and the other members of the Committee, we are 
going to come talk to you.
    Senator Inhofe. OK.
    Mr. Hanson, any comments as far as your priorities are 
concerned that you would like to share with us?
    Mr. Hanson. Thank you, Senator. I think budget 
implementation and the reforms under NEIMA are important. I 
also think work force development is critically important, and 
maintaining the work force at the NRC.
    Like a lot of Federal agencies, I understand they have an 
aging work force, or a work force that is increasingly eligible 
for retirement. So getting people in the door on the young side 
and enthusiastic about what is going on in the nuclear sector 
is critically important. And a life in public service.
    I was recently at the University of Maryland, at their test 
reactor. I got to meet some of their engineering students down 
there. I think the Nation's test reactors at the universities--
there are 36 of them--provide a really unique opportunity for 
students to get hands on experience and can hopefully serve as 
a pipeline to the NRC, in order to have that work force that is 
needed to keep the industry going and to license new 
technologies.
    Senator Inhofe. Yes, work force is a problem. We have been 
dealing with that in a lot of other areas.
    One of the problems is that we have arguably the best 
economy we have had in my lifetime. That makes the job market a 
little different than it used to be. So there is a lot of 
competition out there. You have a lot of work to do.
    Thank you.
    Mr. Wright. That is right.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Good morning, Mr. Benevento. I mentioned when we met that I 
was going to give you a compilation of economic reports warning 
of economic crashes that relate to climate change.
    I am going to give you this. It includes peer reviewed 
economic studies. It includes a Nobel prize winning economist's 
sworn testimony. It includes reports by the Bank of England, 
the Bank of France, a consortium of central banks, the Bank of 
International Settlements, which is kind of the bank of 
sovereign and central banks, reports by Freddie Mac, by 
insurance publications, risk and assurance, by Moody's, by 
Standard and Poors, by First Street Foundation, by McKinsey, 
the consulting firm, by Blackrock.
    What I am going to ask you to do, because you are a busy 
person, and I don't expect you to read this whole thing, what I 
am going to ask you to do is have somebody at EPA read it and 
summarize it for you. Ask for a report from somebody at EPA 
saying, What is this thing that Senator Whitehouse gave me, 
What are the conclusions we should draw from it.
    Then I am going to ask you when that is done to let me know 
that that is done, so that I know it got done.
    Will you do that for me, will you have someone at EPA 
summarize this compilation in a memo for you, and let me know 
when that is done?
    Mr. Benevento. Yes.
    Senator Whitehouse. Thank you.
    Second ask. Senator Carper and I have asked the Inspector 
General of EPA to investigate Bill Wehrum for work he did at 
EPA that benefited a client of his from private practice. That 
is our allegation.
    Because the allegedly corrupt work is still on the books at 
EPA, and because it affects policy, that IG investigation is 
still ongoing. Will you assure us that as the No. 2 at EPA, you 
will make sure that EPA cooperates with the Inspector General 
investigation?
    Mr. Benevento. We will cooperate with the IG.
    Senator Whitehouse. There is a new--you have a returning 
person coming back to EPA to be Mr. Wheeler's chief of staff. 
She has not been amenable or available to the Inspector 
General, because she has been out of EPA. When she is back, 
will you make sure that if she has any relevant evidence about 
this investigation that she cooperates with the Inspector 
General?
    Mr. Benevento. I will talk with Ms. Gunasekara when she 
comes back about that.
    Senator Whitehouse. It is appropriate for her to cooperate 
with an Inspector General investigation, is it not?
    Mr. Benevento. The Administrator has, I think, every year, 
the last couple of years, has put out a memo detailing his 
belief that we should be cooperating with the IG. We will do 
so, consistent with the Administrator's directive to all agency 
employees.
    Senator Whitehouse. Good. When Ms. Gunasekara was out of 
the agency, she set up a dark money operation, anonymous donor 
funded operation, that worked in climate denial, in the 
environmental space.
    She was also something called a senior fellow at something 
called the Texas Public Policy Foundation, which is a pretty 
notorious dark money funded climate denial shop. And also 
something called an advisor to the CO<INF>2</INF> Coalition, 
which is another notorious dark money funded climate denial 
shop.
    Here is my question. Every employee at the EPA has an 
obligation of impartiality. It is an ethics rule. And it means 
that if you are making decisions that relate to people or 
interests or companies with whom you have a relationship, that 
relationship needs to be disclosed, and you need to take 
appropriate steps to make sure there is no conflict of 
interest.
    Is that a pretty fair statement of that rule?
    Mr. Benevento. Yes. Yes.
    Senator Whitehouse. Generally.
    Mr. Benevento. Yes.
    Senator Whitehouse. How are you possibly going to know that 
she is in compliance with that rule if you don't know who was 
funding her through this period?
    Mr. Benevento. Our expectation is that all employees 
consult with career ethics counsel and receive guidance from 
them on what they can be involved in and what they can't.
    Senator Whitehouse. Here is the problem. You haven't 
updated your ethics rules. You don't even ask about dark money 
conflicts of interest. You are still using ethics rules that 
predate the explosion of dark money that has corrupted our 
politics.
    So you actually don't know that information. And when you 
say, go to the ethics people, you are going into a fixed game, 
because they don't ask that question either, because you 
haven't updated the ethics rules.
    So let me go back to my original question. How could you 
possibly know if she is behaving in violation of her duty of 
impartiality without knowing who her big funders were through 
this time when she was in her hiatus from the EPA?
    Mr. Benevento. We expect all employees to follow the ethics 
rules as they are written, and coordinate all their activities, 
their obligations, with career ethics counsel. That applies for 
all EPA employees.
    Senator Whitehouse. And you don't ask the right question 
through your career ethics counsel, so that becomes a self-
fulfilling prophecy.
    My time is up.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Mr. Benevento, I will start with you, please, and focus on 
you, of course, with the EPA.
    As you know, the 10th Circuit has found that the EPA abused 
the small refinery exemption program by granting SREs in an 
arbitrary and capricious manner. OK? Not my words. Arbitrary 
and capricious manner.
    We have just heard from another Senator concerned about the 
oil industry. But I am concerned about my industry in Iowa that 
was harmed by these illegal--not coming from me, coming from 
the 10th Circuit--illegal SREs.
    These illegal SREs caused over 4 billion gallons of demand 
destruction for ethanol and biodiesel. It shut down numerous 
plants across the heartland, depressing commodity values in an 
already uncertain time for my farmers and my producers.
    Can we agree that at this very moment, the 10th Circuit 
decision is the law of the land?
    Mr. Benevento. Senator, as I mentioned to Senator Inhofe, 
that decision, the timeline of that decision coming out in my 
nomination together----
    Senator Ernst. Understood. But can we agree that this is 
the law of the land right now? It is a decision.
    Mr. Benevento. Yes, it is a 10th Circuit decision, and it 
is binding, yes, ma'am.
    Senator Ernst. Yes. Thank you. There are currently 23 
pending waiver petitions for 2019.
    Now that the administration is considering an appeal, which 
is ongoing now, that decision has yet to be made from the 10th 
Circuit, can you commit to me that the EPA will not grant any 
of these pending small refinery exemptions of 2019 until the 
legal action is settled?
    Mr. Benevento. Thank you, Senator. While this review is 
ongoing, and I look forward to coming up to speed on it once my 
confirmation hearing is complete, I would want to get back to 
you with a response on how we were going to be managing the 
program on any matter after the hearing, perhaps with a QFR.
    But I don't want to do is, as the review is ongoing, and 
there is a lot of--it is a very complex decision. I know our 
folks in OAR, as well as the lawyers at DOJ, are looking at it 
and trying to determine what exactly it means for us.
    So I would like to--the best way to get back to you on 
that, to give you an answer that I think is going to be certain 
and going to be accurate, is to respond in writing.
    Senator Ernst. I can appreciate the situation that you are 
in. I can tell you, our farmers and producers are tired of 
being yanked around by the EPA, and again, these illegal SREs.
    And yes, there are some small refineries out there that 
should be granted waivers. I will give them that. But a number 
of these small refineries are actually owned by much larger oil 
companies like Exxon and Chevron. Those don't seem to be small 
refineries.
    And a little additional information. The American Petroleum 
Institute is the only national trade association that 
represents all aspects of the oil and gas industry, America's 
oil and gas industry. They said the EPA should move immediately 
to apply the court's decision nationwide. Anything short of 
this will only further exacerbate the regulatory uncertainty.
    So not only are we yanking our ethanol producers--America's 
farmers--around, but some of the folks in the oil industry are 
being yanked around as well.
    So we need to move through this, not do the appeal, go 
ahead and apply the standard that the court came out with, and 
really focus, just as the Senator from Oklahoma suggested, 
looking at other ways that we can provide relief to the small 
refineries, outside of yanking around our producers and our 
farmers in the Midwest.
    So you know where I stand on this. My folks back home know 
where I stand on this. We have had ethanol producers that have 
shut down. Not the threat of small refineries that might shut 
down some day. We have had ethanol plants shut down. We are 
following the law. We believe EPA should follow the law as 
well.
    Thank you for your consideration, and guaranteed, we will 
follow up on that.
    Mr. Benevento. Thank you, Senator.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    I would like to follow up on my colleague from Iowa, since 
I am on the other side of the Mississippi in Illinois.
    Mr. Benevento, you told Senator Inhofe that he would see a 
solution that is equitable for everyone, including small 
refineries. Would you like to explain to us or define to us 
what you consider to be a small refinery? Do you have a 
definition?
    Mr. Benevento. There is a statutory definition. There is a 
statutory definition for what constitutes a small refinery that 
we have applied in the past.
    Senator Duckworth. Including the ones that are actually 
owned by large oil concerns?
    Mr. Benevento. Yes.
    Senator Duckworth. Let's take a look at that again. I am 
confused. Has a decision been made or not been made regarding 
this appealing of the 10th Circuit Court decision?
    Senator Ernst had mentioned back on Friday, and there is an 
article, Iowa's Starting Line, saying that President Trump was 
indicating that you are not going to appeal. That is what the 
Administrator had told me also, gave me his word that you were 
not going to appeal.
    And now you are telling me, as of our meeting just the 
other day, that no decision has been made. So where is the 
Administration on this?
    Mr. Benevento. And I may have misspoken, Senator, so thank 
you for the opportunity to correct.
    I have not been involved in this decisionmaking process. 
The 10th Circuit decision came down relatively recently, about 
the time that I was nominated. So I haven't been involved in 
the day to day conversations that have been going on. I can't 
shed any light on that for you at this hearing today.
    Senator Duckworth. When are you guys going to come up--I am 
hearing both sides. I am hearing that a decision has been made, 
a decision has not been made. Regardless, this is going to hurt 
our farmers.
    I agree with Senator Ernst, we have producers who have gone 
out of business. We have farms that have gone bankrupt. We have 
ethanol producers that are no longer producing, have been shut 
down for 18 months.
    I am very concerned that we are going to destroy the 
ethanol industry in this country, and that is a viable biofuel 
that moves us toward a carbon-neutral future. It is a promise 
the President made to our farmers, time and time again. It is a 
betrayal to our farmers, what has been done with the RFS and 
ethanol.
    Will you promise me that if you are confirmed, the EPA will 
suspend any action on pending and future small refinery 
exemption approval requests until this matter with the circuit 
court is fully resolved, whether that is simply through 
accepting the ruling or continuing the litigation? So no more 
approvals of any exemptions until this whole thing is resolved.
    Mr. Benevento. Senator, thank you. I commit that what I 
will do is go back to the agency and look into this matter. I 
would be happy to follow up with you after that.
    Senator Duckworth. So you are not going to make that 
commitment here today? You are just going to promise to go look 
into it. Which is what I have been hearing.
    Meanwhile, the waivers--it is an easy thing to say. Don't 
grant any more waivers, since you are going to be appealing 
this ruling. Or if you are not going to appeal the ruling, then 
you don't need to grant any more waivers. So it is easy to 
just, let's stop granting these waivers until the 
Administration has made up its mind. What is tough about that?
    Mr. Benevento. I just don't think it would be prudent to be 
making regulatory decisions right here.
    Senator Duckworth. This is not a regulatory decision. This 
is not a regulatory decision. This is just suspending any 
future actions and granting any more small refinery waivers. 
You granted over 40 of them, an unheard-of number so far, 
driving our farmers into bankruptcy, driving our producers out 
of business. Why can't you wait the 2 weeks and not grant any 
more during the time period that you are making the decision?
    Mr. Benevento. Well, again, as I indicated to Senator 
Inhofe and Senator Ernst, this is a matter that I haven't been 
involved in as it has been developing at the agency. So I do 
need to go back and learn what is happening. Then I would be 
happy to follow up with you.
    Senator Duckworth. What is your advice going to be, your 
recommendation to the Administration on this issue? I know it 
is not your final decision. But I want to hear your views on 
this, and it is essential as to how the RFS program is going to 
be implemented. It is certainly a vital issue for my 
constituents in Illinois.
    Mr. Benevento. I understand, in your office, you were very 
clear on that as well, how important it is to your 
constituents. It was helpful to hear that.
    What I am going to do after the confirmation hearing is go 
back and get fully briefed on the status of what we have been 
doing since the 10th Circuit decision. I would be happy to 
follow up with you after that.
    Senator Duckworth. I highly recommend that you put a 
moratorium on allowing any more refinery waivers in the 
meantime.
    I am out of time, Mr. Chairman, thank you.
    Senator Barrasso. Thank you very much, Senator Duckworth.
    Senator Carper.
    Senator Carper. Mr. Chairman, I would ask unanimous consent 
to insert into the record a recent letter sent by 15 auto 
makers, urging the Administration to pursue a more reasonable 
course of action than the one they have decided to pursue with 
respect to clean car rollbacks. Thanks very much.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Senator Barrasso. Thank you, Senator Carper.
    I would like to note that last Friday there was an article 
that ran nationally with a headline President Trump Plans to 
Fight the Ruling Risking Refinery Biofuel Waivers. So if 
allowed to stand and applied nationally, the 10th Circuit's 
ruling would effectively end, in my opinion, hardship relief 
for small refineries. The ruling would put dozens of small 
refineries and tens of thousands of jobs at risk.
    The Administration cannot let that happen. I support the 
President's decision to appeal the ruling, and ask unanimous 
consent to enter this article into the record.
    Without objection, it is so done.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I was going to 
begin by saying at the risk of alienating my two friends on the 
different side of this issue, I would like to make a statement 
about the small refinery exemption.
    We do have one small refinery--you and I talked about this, 
Mr. Benevento, in my office--that really qualifies. It is not 
large; nobody has probably ever heard of the company. But it 
does employ several hundred West Virginians, and it is very 
significant, has a long history of being in this part of our 
State.
    Unfortunately for this particular small refinery, they have 
a Federal court decision that says that their small refinery 
exemption application is worthy of reconsideration. Our 
frustration, my frustration that I have talked with 
Administrator Wheeler about, is that the EPA has failed to 
sufficiently reconsider this. So I would put that on your 
table.
    I don't really need a response from you, except to 
acknowledge that you would--obviously, you are going to be 
looking into this, but that you would look at this specific 
case in terms of a reconsideration of its denial.
    Mr. Benevento. Yes, I will, thank you.
    Senator Capito. Thank you.
    I want to move to another issue that I have worked hard on 
in this Committee, and many of us are extremely concerned 
about. Again, I mentioned it to you in my office. This is the 
PFAS issue, the contamination that we have seen near our 
military bases because of the firefighting foam, which I shared 
with you at least one of our incidents of PFAS contamination 
was caused by that, or thought to be caused by that. We have 
really been pushing hard for EPA, we have had the Administrator 
here, he said, We are going to be working on a drinking water 
standard for PFAS to get the maximum contaminant level, which 
we have yet to see.
    We have recently received assurances from the agency that 
they are going to move fast and furious, we hope, on 
establishing this MCL standard for PFAS. So this will be a 
crucial step for us and I think for the country. If you see 
more and more pervasive use, obviously, of the chemicals, but 
also a lot of unknowns, that is what we are trying to 
determine, using the science, to get to a safe level.
    Again, this is a high priority for many of us here. Not 
just on the Senate side, but over on the House side. Certainly 
the Chairman has been involved with this and many others.
    I don't know if you can add anything to that issue, what 
steps might be, what you would see in your new position to be 
able to be helpful here.
    Mr. Benevento. Thank you, Senator. We have taken a two-
track approach to PFAS. One is outlined in the PFAS action 
plan, which outlines short term and long term steps that we are 
going to be taking to try and address this.
    But at the same time, it has been really important--I 
worked on this, when I was a regional administrator, to address 
PFAS where it is found in the country, to make sure that we cut 
off all exposure.
    Part of our plan, and part of the PFAS action plan, and 
part of the Administrator's commitment, was to set a maximum--
or was to examine, go through the regulatory process of 
establishing a maximum contaminant level.
    We have taken the first step in that; we have already made 
a regulatory determination that it warrants moving to the MCL 
process. We are doing that right now. We are doing that as 
quickly as possible. But it is important that we do it 
correctly. We need to make sure that the science warrants--we 
have the back up science, and we meet the legal statutory 
requirements to set an MCL. Because there will be entities out 
there that are going to be closely looking at what we are 
doing.
    So we have taken that first step to setting the MCL. We are 
moving as quickly as science allows us to move and as quickly 
as the statute allows us to move.
    Senator Capito. So here is what worries me, because in 
between the words of what science allows, and I emphasize the 
need for science in this area, we have been looking at this 
issue very aggressively for 4 to 5 years, when it was first 
determined that it was found near these bases with the 
firefighting foam. And trying to get remediations for small 
cities, which we were able to get for our small city of 
Martinsburg.
    But I would just say that time is of the essence here. I 
think that this is so pervasive, and I don't know what the 
damage can be. But I can't run the risk of having a seat here 
and knowing that I have grandchildren, I have children, and I 
am not sure that their drinking water, the level of this 
particular chemical in their drinking water, is at a safe 
level. That is a major concern all across this country.
    So I would just reemphasize, quicker is better, more 
aggressive is better, and using the science, yes. But also we 
all know things can get expedited and move faster if you have 
the passion behind it. So I would encourage you to move in that 
direction in your new position.
    Thank you so much.
    Mr. Benevento. Thank you. And I just want to assure you, 
where we find PFAS, we are making sure to cut off exposure. 
Your point is a very good one, and we are diligently trying to 
do that.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Congratulations to all of you on the nominations.
    Mr. Benevento, thank you for getting together yesterday. I 
want to follow up on some of that conversation, especially as 
it relates to the Chesapeake Bay.
    Senator Cardin and I, of course, represent a big part of 
the Bay watershed. We have been working for decades now with 
the Federal Government, State governments, local governments, 
cooperating and trying to clean up the Bay.
    We have the Chesapeake Bay Agreement; EPA plays a vital 
role. They are kind of the glue that holds it all together.
    States submit, of course, their watershed implementation 
plans. We just saw those plans submitted late last year.
    We looked at the State of Pennsylvania's plan; they were 
far short. EPA has found that they were far short in terms of 
preventing pollution from going into the Bay.
    In one measure, the nutrients, they were only 75 percent 
toward the goal that we have to reach in order to meet the 
cleanup targets for 2025. And then even if you look at that 
plan that falls short, they don't have adequate financing.
    So No. 1, will you work with us to make sure that the 
Chesapeake Bay gets the resources it needs from all the funding 
streams of Federal Government, EPA funding as well as out of 
the ag bill, and that we target those, especially upstream, 
where we have a lot of nonpoint source pollution?
    Mr. Benevento. We are happy to work with you, Senator, yes.
    Senator Van Hollen. So, Pennsylvania has actually applied 
for a number of grants. Some of them have been to the 
Department of Agriculture. They have been denied, even though 
they have a big need.
    So I really--we need to make sure we have a commitment from 
EPA as the quarterback of this to work with the other agencies 
to get it done.
    Now, the other question is, if they continue to fall short, 
do you agree that EPA has what we call backstop authority? In 
other words, do you agree that EPA has the legal authority to 
enforce Pennsylvania's compliance with the TMDL?
    Mr. Benevento. Yes, TMDLs are enforced, can be--I am a 
former State regulator, so some of this speaks to me a little 
bit. You do a water quality analysis, that results in a TMDL, 
then the TMDLs, of course, are the basis for permits that are 
issued. That is where EPA can step in, even if it is a State 
permit, and take a look at the permit to determine whether it 
is meeting what is in the TMDL.
    Senator Van Hollen. Right. Because there has been some 
ambiguity coming from EPA on this question. So this is an 
opportunity to clarify it.
    Do you agree that EPA has the legal authority to hold 
Pennsylvania legally accountable toward meeting the targets 
that EPA believes are necessary to achieve the goals?
    Mr. Benevento. Within the confines of the Clean Water Act, 
we certainly have a lot of authority, yes.
    Senator Van Hollen. So just to press the point a little 
bit, do you agree that you could take Pennsylvania to court to 
enforce these provisions? Because if EPA says it doesn't have 
the authority, you know you are very likely to get a lawsuit 
quickly from the State of Maryland and others to enforce that 
authority.
    So we are seeking clarification as to whether EPA will use 
its legal authorities to hold Pennsylvania responsible for 
meeting the targets if you are not satisfied that they are on 
track.
    Mr. Benevento. Yes, with the legal authorities that we 
have, we could hold a State permit, we could intervene in a 
State permit, yes.
    Senator Van Hollen. OK. The qualification of the permit is 
where we are going to have to maybe follow up.
    So let me ask you about the telework, given the 
coronavirus. Agencies are obviously having to look at telework.
    Mr. Benevento. Yes.
    Senator Van Hollen. EPA, I know that you are now permitting 
more telework. But I am just reading a headline from June 26th, 
2019, from the Government Executive, which is a publication 
that follows activities in the Federal Government.
    Headline, EPA Unilaterally Imposes New Union Contract 
Slashing Telework, Easing Firing. This has been an ongoing 
subject of concern to EPA employees that this Administration 
came in and cut back on telework.
    Were you part of that decision to cut back on telework?
    Mr. Benevento. No.
    Senator Van Hollen. Did you support the decision to cut 
back on telework?
    Mr. Benevento. I support the Administration, yes.
    Senator Van Hollen. So you supported their proposal to cut 
back on telework?
    Mr. Benevento. I mean, I support the policies of the 
Administration.
    Senator Van Hollen. So in 2017, the EPA Inspector General 
reported that EPA's existing telework policy at that time was 
working, that there were no performance issues.
    Do you have any evidence to suggest that there were 
performance issues with the prior telework policy?
    Mr. Benevento. I don't have any evidence with me, no.
    Senator Van Hollen. OK. So you support the Administration's 
position, not based on any information, but just because it was 
the Administration's position, is that right?
    Mr. Benevento. Well, that was the policy that was put out. 
I was a regional administrator at the time, so we received the 
policy, and we implemented it.
    Senator Van Hollen. OK. So you reduced people's telework 
opportunities?
    Mr. Benevento. Yes, consistent with the direction that we 
received.
    Senator Van Hollen. And it was unilaterally imposed. Yes.
    So now, obviously, given the current situation, people are 
looking at telework options. But we should also, on a 
bipartisan basis, the Congress has said the Federal Government 
needs to have an option of telework. Obviously, it needs to 
meet performance standards. So, very disappointed that EPA has 
gotten rid of the old one.
    To the gentlemen for the NRC, thank you for being here.
    Mr. Chairman, could I have just a moment?
    Senator Barrasso. Please, yes.
    Senator Van Hollen. I know that when you had the earlier 
virus, I think the H1N1, you actually put in place as an agency 
a plan that would protect your employees, but also make sure 
your critical mission continued.
    Mr. Wright, I know you are there now. Are you taking 
measures right now to make sure we have plans in place?
    Mr. Wright. Senator, thank you for the question. Yes, we 
are focused on ensuring the safety of our people.
    So we are broadly sharing and implementing the CDC control 
guidelines to try to control the spread of the virus, No. 1. We 
are also reviewing our continuity of operations plan. And just 
to your concern about telework, about 74 percent of our people 
have telework agreements right now. So we are actively engaged 
on that issue.
    Then for our licensees, they are also taking precautions 
that are consistent with the guidance that the industry is 
following. They have sequestration plans if they need to. They 
have restricted site access for peopled not to be on the site 
if they have been out of the country in the last 14 days or so. 
We do have plans in place.
    Senator Van Hollen. OK, thank you.
    Mr. Hanson, thank you for your service up here on the Hill, 
and congratulations on the nomination.
    Mr. Hanson. Thank you, Senator.
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman. I want to 
commend the nominees for their desire to serve their country, 
and their families who are all here supporting them. It is not 
always easy to do this. So we very much appreciate it.
    Mr. Benevento, I am going to focus most of my questions on 
your upcoming role. I think you and I are meeting tomorrow, so 
I look forward to going into a little bit more detail. But for 
the record, I want to get a couple of things, a couple of 
commitments from you.
    One of the good news stories on the environment in the last 
few years is the strong bipartisan cooperation we have seen 
with regard to cleaning up our oceans. Senator Whitehouse and I 
have been working on legislation, the Save Our Seas Act. The 
Chairman has been very supportive of this.
    We had a Save Our Seas Act 2.0, which the Congressional 
Research Service called the most comprehensive ocean cleanup 
legislation ever, ever to come out of Congress. It passed the 
Senate 100 to zero 6 weeks ago. So we are going to try to get 
it through the House.
    If confirmed, can I get your commitment to help implement 
this? It is something that the President and Administrator 
Wheeler have fully supported and backed. I just want to make 
sure I get your commitment on that as well.
    Mr. Benevento. Absolutely. It is an agency priority.
    Senator Sullivan. Great. Thank you.
    Similarly, it is a little bit more regional, but we have an 
issue in Alaska, southeast Alaska, what we refer to as our 
transboundary mining challenge. I am a strong resource 
development oriented Senator.
    However, we do have a number of mines on the border between 
Alaska and Canada where there have been instances, one, the 
Tulsequah Chief Mine continues to spew toxic waste into the 
river. Three decades now, the Canadians won't clean it up.
    I have raised it with the Prime Minister twice. Remarkably, 
his response is, Well, Senator, we didn't like that the 
Congress opened ANWR. It is kind of like, What the hell does 
that have to do with cleaning up the rivers in Alaska?
    But anyway, we were expecting--and actually, the EPA has 
been helpful on this. You were conducting a gap analysis with 
regard to the environmental standards on the U.S. and British 
Columbia transboundary mining rivers. I was hoping to get a 
status update on this document that can be shared with 
Congress.
    Do you know what the status of that is?
    Mr. Benevento. It is still being worked in our Office of 
International and Tribal Affairs. But I can get you a more 
detailed status analysis after the hearing.
    Senator Sullivan. That would be good. It is important.
    Again, we have had strong support from the Administration 
on this, much stronger than the previous Administration on 
holding the Canadians' feet to the fire about cleaning up some 
of these mines and making sure they don't pollute our rivers 
and oceans in Alaska.
    Let me turn to another issue that really is important, and 
I would like to get your commitment on. One of the first pieces 
of legislation that I focused on, again, was in this Committee 
to develop a new program to help disadvantaged communities that 
lack water and sewer. I think it comes as a surprise to many 
Americans to know that certain communities--unfortunately over 
30 in my State--don't have basic running water, flush toilets, 
basic things that most Americans just take for granted that 
they think everybody has.
    Well, not everybody has them. I think everybody should. 
These are some of the most patriotic communities in America. 
They are primary Alaska Native communities. Alaska Natives 
serve at higher rates in the U.S. military than any other 
ethnic group in the country.
    And yet a lot of these communities don't have flush 
toilets. They literally have to take a bucket, called a honey 
bucket, out of their house, and dump it into a lagoon full of 
waste. It is horrendous. We have much higher rates of diseases 
in children in these communities because of this.
    So the Trump administration has kind of been up and down in 
funding this program. I want to get your commitment, I try to 
get it from every EPA Administrator and budget director, that 
you are going to help fund these programs that are very basic 
in terms of what most Americans would believe is just common 
hygiene that we all take for granted in most communities.
    Can I get your commitment to work with me and this 
Committee on those issues?
    Mr. Benevento. Absolutely. As I think the Administrator has 
indicated, these are core issues for the agency. These are 
core--I mean, I ran a public health department. These are core 
public health issues. So absolutely, you have my commitment.
    Senator Sullivan. Let me ask about one other one. The 
Administrator was up in Alaska in August, had great meetings. 
This issue came up a number of times. We have made some 
progress in this Committee, again, on legislation that I had. I 
want to thank the Chairman for his help on this.
    In 1971, there was landmark legislation called the Alaska 
Native Claims Settlement Act. It provided Federal and State 
land to Alaska Native tribes and other entities in fee simple, 
a lot of land, 44 million acres. It kind of really energized 
our State in terms of our economy, in terms of what our Native 
communities were able to do with this land.
    Unfortunately, a lot of that land that was transferred by 
the feds was contaminated, severely contaminated. So now the 
Alaska Native people were saddled with lands, but you couldn't 
use the lands.
    Worse, there was a time that the Federal agencies were 
coming back to them saying, oh, by the way, we are going to sue 
you to clean up the dirty lands that we gave you that were 
polluted in the first place. Kind of ridiculous.
    We got a law passed recently, legislation of mine that 
said, Of course they are not going to be liable. The land was 
given to them polluted.
    But what we need to do is think about innovative ways to 
clean up this land, like you would on military bases or other 
places that are transferred to communities that are 
contaminated. It is not just going to be through dollars and 
cents; it is going to be through other innovative ways.
    I have talked to the Administrator about a number of these. 
Can I get your commitment to work with me and this Committee on 
ways to clean up the ANSCA contaminated lands in Alaska?
    Mr. Benevento. Absolutely.
    Senator Sullivan. Great.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you all.
    If there are no more questions, I welcome back Senator 
Carper.
    I know we had hoped to end at about this time.
    Do you have a final question?
    Senator Carper. One more.
    Again, our thanks to each of you for being with us today, 
and to your families for supporting your loved ones and sharing 
them with us.
    My wife and I have three sons. You have three sons. Mr. 
Benevento, you have two daughters. My hope is that I am going 
to live a long time, I hope all of us here do.
    But the threat that we are faced with, our climate right 
now, this climate crisis, the people who really are at risk are 
my kids, ultimately their kids, your children, and your 
grandchildren.
    We have some people who think we ought to close every 
nuclear power plant in the country, which I think is a crazy 
idea. That is not what we need to do.
    The greatest source of carbon dioxide on our planet is our 
cars, trucks, vans, mobile sources. The auto industry has said 
basically that they can work, California and other States, on a 
reasonable path forward that creates jobs, economic 
opportunity, and actually reduces significantly emissions from 
mobile sources going forward. We ought to do that.
    My wife just got back from a trip down to Antarctica a 
month or so ago. A week or two after she got back, they 
recorded a temperature in Antarctica of 63 degrees Fahrenheit. 
South Pole.
    Two weeks later, it was 65 degrees Fahrenheit.
    Two weeks later, it was 67. That is the hottest it has ever 
been down there. A piece of Antarctica the size of the District 
of Columbia, where we are, here today, literally fell into the 
ocean while my wife was there.
    In Australia, we have some friends there, I know you do 
too; in Australia they had the fires back in January the size 
of the State I was born in, West Virginia, as big as West 
Virginia. A billion or more animals and birds killed, five 
people killed. We have just gone through the last 5 years, 
hottest 5 years in history. This January was the hottest 
January in history.
    We can do something about it, or not. Failure to act with 
some dispatch, it is on us. It is not all on EPA, it is not all 
on Congress. It is not all on business.
    But every now and then, we can find a path forward, if the 
business community agrees on it and the environmental community 
agrees on it. In this case, two-thirds of the Senate agree on 
it. And that is the greenhouse gases that are in our air 
conditioners and our refrigerators, they are pretty good at 
keeping things cool inside. They are a thousand times more 
dangerous in terms of climate change than carbon dioxide.
    We can do something about that, and we need to do something 
about that.
    As you go about your responsibilities, I know you are 
probably getting certain signals from some folks in the White 
House, including the President, on what is inappropriate. He 
thinks climate change is a hoax. Well, it ain't.
    I will just ask, when you are being leaned on from powerful 
people within the Administration that maybe you report to, do 
what I do. That is keep my kids in mind. I would just urge you 
to do the same thing.
    Because what did President Macron say when he came to see 
us, he spoke at a joint session the Congress took 2 years ago, 
President Macron from France. He spoke in English, and he said 
these words, God only gives us one planet, he said; There is no 
Planet B. This is it, and we need to cherish it and take care 
of it.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    Just one final piece of information to submit for the 
record. The Executive Director of the Colorado Counties, 
Incorporated, John Swartout, and former Environment and Natural 
Resource Advisor to then-Democrat Governor of Colorado, John 
Hickenlooper, wrote in support of Mr. Benevento's nomination. 
He said, ``I have always found Mr. Benevento to be 
professional, intelligent, knowledgeable, dedicated, and 
willing to work in a non-partisan way to enhance and protect 
the environment.'' He went on to say that, ``One thing that has 
always impressed me is that he is willing to tackle the tough 
issues, make a difference, and get results.''
    Without objection, I will submit this to the record.
    So done.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Finally, since there are no other members 
of the Committee here today, some members may have to submit 
questions in writing. They will be submitted by 4 p.m. on 
Friday, March 13th. I ask the nominees to respond to those 
questions by 4 p.m. on Thursday, March 19th.
    I want to thank the nominees.
    I congratulate you again on the nominations. Thank you for 
the time and the testimony today.
    The hearing is adjourned.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
